  TO:             File

                                      udit Advisor and Liaison to the Office of Polar Programs
                                      ssistant InspeqpGeneral for Investigations

 RE:

 DATE:           6 January 2000


 Allegation

 OIG, through OPP and CPO, received an allegation from the Quality Assurance Inspector (QAI) at-
 the m g a r d i n g maintenance work performed on one of its aircraft by-

 The QAI said that maintenance records showed that a part that "never fails" had been replaced
 during isochronal inspectionsJ-oJ'fr                       1998 and again in 1999.

 The QAI examined the part that had allegedly been installed during the 1999 isochronal inspection
 and found it to be unduly worn. He formed the opinion that the part had not been recently
 installed.
                                                                                                       I

 The QAI questioned whether-as               using used parts or whethe
 government for parts and labor to install parts that were not, in fact,

a-s             instructed to retain the part that was removed from the aircraft durin the 1999
                                                                                R
   isochronal inspection so that the QAI could inspect it on an up-coming trip to                      !


The QAI inspected the part and stated that it was worn.



During a 6 May 1999 telcon the QAI appeared to be backing off from his prior statements.
                                                                                                           I
                                                                                                       I




The QAI said that the part was not serial number controlled and was probably worth about $10 (the
part in question is a wrap that goes around a pressurized hose).

In May 199                           PP, d                                DCMC (Defense
Contracts
     e h -M                             entity that administers OPP's contract w-ti
personnel discussed the allegation and it was decided that DCMC would pursue theTsSUe.

I spoke with the Commanding Officer of                                 n 27 May 1999.-
related that he had spoken with DCMC Legal,                              some p r e h a r y steps to
pursue. (1) c o n d u g an engineering review to determine whether there was a condition inherent in
the aircraft/system that would make the parts in question fail. (2) Conduct a tracer on the p'art
numbers to determine whether the parts in question came from a particular lot that may have been
defective. (3) Perform spot checks on other similar aircraft. We agreed t h a r a s not to be
-
directly involved or contacted. We also agreed that following completion of these tasks, he would
summarize his findings and recommendations and advise same to DCMC Legal and NSF OIG.
Based on this discussion, I recommended to NSF OIG's AIGA that this was a prudent course of
action and that we await the results of DCMC's research.         ..'


I followed up with-n              20 October 1999.
                                                       F      aid they had performed prelimha$
reviews of material and reports, and had interviewe ~ersonnelassociated with DCMC. He stated
that to date nothing had come to their attention that indicated any wrongdoing on the part of


Spoke wit               the evening of 5 January 2000. Because preliminary review revealed no
                       as decided to audit
                                               h        temal processes. He and his staff are
                               for mainten~cean supply, and DCMC's processes for Quality
                                  will focus on what processes are supposed to be followed and
whether there are any "holes" in those processes thaineed to be fixed' He will also review
documentation related to the incident in question t o determine whether the proper processes were
                          DCMC) and, if not, implement corrective action to ensure that they are


Following this review, a close-out report and recommendation will be forwarded t o NSF OIG and
DCMC Legal.

Conclusion

Based on the above and the following, I recommend that with respect to NSF OIG, this allegation
be closed:

(1)     The initial findings as reported b                  a

(2)     Because the part is not serial number controlled, it is unlikely that its origin or disposition
        could ever be definitively determined.

(3)     ~h-ontinues          to deliver its aircrafr o
                                                     t-or           both drop-in and elective
        maintenance.

(4)     T h w a v e not reported any similar complaints or allegationswith respect to subsequent
        maintenance work performed by-

(5)             's position as Commanding Officer of the Defense Contracts Management
        Command and as Government Flight Representative with responsibility for Department of
        Defense flight operations for the Pacific Region make it highly unlikely that this issue is not
        receiving the attention it should receive, and therefore NSF OIG participation is
        unnecessary.
